TY

@OCKLE

2311 Douglas Street . E-Mail Address:
Omaha, Nebraska 68102-1214 Le ga 1B c A ata contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850
No. 20-159
JOHN DEVOS,
Petitioner,
v.
RHINO CONTRACTING, INC.,
AND
SPECIAL COMPENSATION FUND,
Respondents.
AND

RIVERVIEW HEALTH, BLUE CROSS BLUE SHIELD
MN/BLUE PLUS, AND ALTRU HEALTH SYSTEM,
Intervenors.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the WILG’S AMICUS CURIAE
BRIEF IN SUPPORT OF PETITION FOR A WRIT OF CERTIORARI in the above entitled case
complies with the typeface requirement of Supreme Court Rule 33.1(b), being prepared in New

Century Schoolbook 12 point for the text and 10 point for the footnotes, and this brief contains
4520 words, excluding the parts that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 9th day of September, 2020.
1am duly authorized under the laws of the State of Nebraska to administer oaths.

ere] Kevee Q.Llnoe Quadra bt Ole

Affiant

    

 

Notary Public 40128
